     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
July 27, 2011                                                             26 Federal Plaza, Room 3900
                                                                          New York, NY 10278



Report Number: A-02-09-01027

Mr. Peter S. Moore
Vice President, Medicare Division
Group Health Incorporated
25 Broadway, 12th Floor
New York, NY 10004

Dear Mr. Moore:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part B Transition and Termination
Costs Claimed by Group Health Incorporated. We will forward a copy of this report to the HHS
action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-09-01027 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure

HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF MEDICARE PART B
TRANSITION AND TERMINATION COSTS
    CLAIMED BY GROUP HEALTH
         INCORPORATED




                        Daniel R. Levinson
                         Inspector General

                            July 2011
                          A-02-09-01027
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program, which provides health
insurance coverage to people aged 65 and over, people with disabilities, and people with end-
stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program through contractors that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.
The contracts provide for reimbursement of allowable costs when contracts are terminated.

CMS contracted with Group Health Incorporated (GHI) to serve as the Medicare Part B carrier
for Queens County in New York State. Pursuant to section 911 of the Medicare Prescription
Drug, Improvement and Modernization Act of 2003, P.L. No. 108-173, CMS replaced Part B
contractors with new contract entities called Medicare Administrative Contractors (MAC). CMS
did not award GHI a MAC contract. As a result, CMS terminated its Part B carrier contract with
GHI, effective July 18, 2008.

Appendix B of the contract between CMS and GHI sets forth principles of reimbursement for
termination costs. The appendix cited the Federal Acquisition Regulation (FAR) as regulatory
principles to be followed for application to the Medicare contract.

To provide for an orderly transition and termination of Part B functions, CMS entered into an
advance agreement with GHI on June 2, 2008, which modified the contract to allow certain costs
incurred by GHI in connection with the transition and termination of the contract.

GHI claimed Medicare contract transition and termination costs totaling $4,213,738 1 in its fiscal
year (FY) 2008 Final Administrative Cost Proposal (cost proposal).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine if GHI’s claim for transition and termination costs were
allowable, allocable, and reasonable in accordance with the FAR, Medicare contract, and
advance agreement.




1
  GHI’s lease terminates in July 2012. In accordance with the advance agreement, the cost of the remaining lease
term and general maintenance cost for the Part B space is allowable. If GHI is able to sublease the space, it would
mitigate the cost. The remaining depreciation cost for leasehold improvements and furniture and fixtures is also
allowable. The cost proposal included all lease and depreciation cost through September 30, 2009.



                                                          1
Scope

Our review covered the period October 1, 2007, through September 30, 2009. For this period,
GHI reported transition and termination costs totaling $4,213,738 in its cost proposal
(Supplement No. 3). 2 Included in these costs were $1,095,066 of transition costs and $3,118,672
of termination costs. The transition costs included $1,167 of defined benefit pension costs that
we excluded from our review because they will be the subject of a separate audit. Therefore, we
limited our review to the remaining $4,212,571 of reported costs. We reviewed only those
internal controls necessary to achieve our audit objective.

We conducted fieldwork at GHI’s offices in New York, New York, from September 2009 to
August 2010.

Methodology

To accomplish the objective, we:

    •   reviewed applicable Federal laws, regulations, and guidelines;

    •   reviewed GHI’s contract with CMS;

    •   reviewed GHI’s processes for accumulating and allocating termination and transition
        costs;

    •   reviewed GHI’s independent auditor’s reports and letters related to GHI’s internal
        controls;

    •   reviewed the advance agreement between CMS and GHI;

    •   reconciled transition and termination expenses on the cost proposal to GHI’s accounting
        records;

    •   reviewed invoices and related supporting documents, including payroll records and lease
        agreements;

    •   tested a judgmental sample of costs for reasonableness, allowability, and allocability; and

    •   verified that office space used for GHI’s Part B operations was vacant.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


2
  We issued a separate report (A-02-09-01026) on GHI’s Medicare Part B FY 2008 FACP that did not include these
transition and termination costs.


                                                      2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

GHI reported transition and termination costs in its cost proposal that complied with the terms of
the FAR, Medicare contract and the advance agreement. Based on our review, we determined
that the reported transition and termination costs were allowable for Medicare reimbursement.
As a result, this report contains no recommendations.




                                                3
APPENDIX
     APPENDIX: TRANSITION AND TERMINATION COSTS REPORTED ON FINAL
         ADMINISTRATIVE COST PROPOSAL BY COST CLASSIFICATION

                               Cost Category                        Total Costs Claimed
     Medicare Administrative Contractor (MAC) Termination Severance          $3,118,672
     MAC Transition                                                              689,633
                                       1
     Enterprise Data Center Transition                                           404,266
                              2
       Total Costs Reviewed                                                  $4,212,571

     OIG Recommended Adjustments                                                                                0
       Total Adjusted Costs                                                                            $4,212,571




1
    These costs do not include defined benefit pension costs totaling $1,167 that we did not review.
2
    GHI claimed a total of $4,213,738 in transition and termination costs.
